Audit Report
Offices, Boards and Divisions Annual
Financial  Statement  Fiscal Year 2000
Report No. 01-20
September 2001
Office of the Inspector General
COMMENTARY AND SUMMARY
The Offices, Boards and Divisions (OBDs) of the Department of Justice includes the U.S. Attorneys, U.S. Trustees, Office of Community Oriented Policing Services, Executive Office for Immigration Review, Legal Divisions, and general administration offices.  Some of the OBDs' varied responsibilities include representing the American people in all legal matters involving the United States Government, supervising the administration of bankruptcy cases in the Federal Bankruptcy Courts, upholding the civil rights of all Americans, enforcing laws to protect the environment, and safeguarding the consumer from fraudulent activity.
This audit report contains the Annual Financial Statement of the OBDs for the fiscal year ended September 30, 2000. Under the direction of the Office of the Inspector General, PricewaterhouseCoopers LLP performed the audit, which resulted in an unqualified opinion on the FY 2000 financial statements.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and results of operations of the entity.  The OBDs also received an unqualified opinion on its FY 1999 financial statements (OIG Report 00-19).  Comparative financial statements are not required this year and are therefore not presented.
The OBDs continued to improve in its ability to meet federal financial reporting requirements, decreasing its reportable conditions from three in FY 1999 to two in FY 2000.  Both of the reportable conditions for FY 2000 were repeat issues.  The OBDs need further improvement in processing financial transactions to permit the preparation of timely and reliable financial statements in accordance with its policies and generally accepted accounting principles.  Weaknesses were also noted in computer security controls over the Financial Management Information System for most of the year.  No compliance issues were reported for FY 2000.